CERTIFICATE OF SERVICE
No. 20-6791
Alvin Christopher Penn,
Petitioner

v.
United States,

Respondent.
I, J. Matthew Wright, do hereby certify that, on this 24th day of March, 2021,
I caused one copy and an electronic copy of the Reply Brief of Petitioner in the
foregoing case to be served electronically and by Federal Express, postage prepaid,
on the following party:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
/s/ J. Matthew Wright
J. MATTHEW WRIGHT*
FEDERAL PUBLIC
DEFENDER’S OFFICE
NORTHERN DISTRICT
OF TEXAS
500 South Taylor Street, Unit 110
Amarillo, TX 79101
(806) 324-2370
Matthew_Wright@fd.org

